<html>
<title> - HEARING ON THE NOMINATION OF VICTOR M. MENDEZ TO BE ADMINISTRATOR OF THE FEDERAL HIGHWAY ADMINISTRATION</title>
<body><pre>[Senate Hearing 111-1193]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1193

                      HEARING ON THE NOMINATION OF
                  VICTOR M. MENDEZ TO BE ADMINISTRATOR
                 OF THE FEDERAL HIGHWAY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 2, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-587 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 2, 2009
                              
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Kyl, Hon. Jon, U.S. Senator from the State of Arizona............     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     6
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     8
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     9
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................    52

                                WITNESS

Mendez, Victor M., nominated to be Administrator, Federal Highway 
  Administration, U.S. Department of Transportation..............    10
    Prepared statement...........................................    13
    Response to an additional question from Senator Boxer........    16
    Responses to additional questions from:
        Senator Carper...........................................    17
        Senator Cardin...........................................    18
        Senator Sanders..........................................    20
    Response to an additional question from Senator Whitehouse...    21
    Responses to additional questions from:
        Senator Udall............................................    23
        Senator Inhofe...........................................    28
        Senator Voinovich........................................    31
    Response to an additional question from:
        Senator Vitter...........................................    34
        Senator Crapo............................................    35
    Responses to additional questions from Senator Bond..........    36

 
 HEARING ON THE NOMINATION OF VICTOR M. MENDEZ TO BE ADMINISTRATOR OF 
                   THE FEDERAL HIGHWAY ADMINISTRATION

                              ----------                              


                         TUESDAY, JUNE 2, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full Committee) presiding.
    Present: Senators Carper, Inhofe, Lautenberg, Voinovich, 
Bond, Klobuchar, Udall, and Merkley.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order. Oh, nice to 
see you, Senator Kyl.
    I want to welcome you, Mr. Mendez.
    Today we are holding a hearing on the nomination of Victor 
M. Mendez to be the Administrator of the Federal Highway 
Administration. I would like to thank Mr. Mendez for being here 
today and I welcome him to the Committee.
    FHWA is an agency of the Department of Transportation that 
is charged with oversight of several programs, the largest of 
which, the Federal Aid Highway Program, provides funding to the 
States to assist in constructing highways and making highways 
and traffic operations safe and more efficient.
    Another major program overseen by the FHWA is the Federal 
Lands Highway Program through which FHWA works with the Federal 
Land Management Agencies and Indian tribes to manage the 
approximately 300,000 mile road network that serves Federal and 
Indian lands.
    Combined, these programs are maintained at about $40 
billion a year. States depend on this Federal funding. 
Traditionally, the Federal Government has provided about 40 
percent of the Nation's total investment in transportation. 
Without continued funding, States would have to make 
significant cuts to their already under-funded transportation 
programs.
    Highways and bridges built in the 1950s and 1960s are 
reaching the end of their expected service life and additional 
funding is needed for major repair or replacement. Similarly, 
transit systems are aging and many communities are in need of 
new or expanded service.
    This means we need to make significant investment in the 
short term just to maintain our infrastructure at safe levels, 
followed by even larger investments over the next 20 to 30 
years to completely replace aging infrastructure and 
accommodate expected growth in population.
    A key issue for the next Administrator will be management 
of dwindling resources in the Highway Trust Fund, which 
supplies most of the funding that FHWA administers. According 
to DOT, and this is really not good news for all of us, the 
Highway Trust Fund is expected to have insufficient cash by 
August of this year to make good on prior commitments. 
Therefore, an additional $5 billion to $7 billion will be 
needed to keep the Highway Trust Fund solvent through the end 
of this fiscal year.
    In addition, Administration officials have estimated that 
an additional $8 billion to $10 billion is needed to pay 
immediate cash needs if the overall program is to be maintained 
at current funding levels.
    The need to maintain a sustainable funding source for our 
critical infrastructure must be a central focus of all of our 
efforts across party lines. And I am happy to say that in this 
Committee we do work very strongly across party lines on these 
issues. We all know that investment in transportation is 
crucial to our prosperity and we all know it creates jobs.
    The current highway transit and highway safety 
authorization, SAFETEA-LU, expires at the end of fiscal year 
2009. Additional revenue will be needed to merely maintain 
existing programs and much more will be needed if we want to 
provide additional resources to our States which are struggling 
to improve existing infrastructure.
    The Committee is working on a new bill called MAP-21, 
Moving Ahead for Progress in the 21st Century. This bill gives 
us the opportunity to take a fresh look at the current program 
and make the transformational changes necessary to ensure our 
Nation's system will meet the needs as we move forward.
    This Committee, working across party lines, has agreed to 
about eight principles for the new bill and we will look 
forward to working with you, Mr. Mendez, as we get to 
reauthorize the transportation programs of our Nation. We 
really do look forward to your working with us.
    So, thank you very much for appearing before this 
Committee. I certainly look forward to hearing from you. I will 
call on Senator Inhofe and then, if no other Senators are here 
by then, we will go right to Senator Kyl for the introduction.
    Senator Inhofe. Madam Chairman, it is all right with me, it 
would be OK to have Senator Kyl go ahead with the introduction, 
because he has another commitment that he needs to take care 
of.
    Senator Boxer. Sure.
    Senator Kyl, please proceed.

              OPENING STATEMENT OF HON. JON KYL, 
             U.S. SENATOR FROM THE STATE OF ARIZONA

    Senator Kyl. Thank you, Madam Chairman. And thank you, 
members of the Committee.
    Incidentally, Madam Chairman, I compliment you for coming 
up with a much better name that some of the previous names. 
That MAP-21 sounds good to me.
    Senator Boxer. Well, can I quickly tell you a funny story? 
I was telling my husband how the name SAFETEA-LU came into 
play. It had to do with one of our colleagues' spouses whose 
name is Lulu. I said to my husband, I have bad news and good 
news for you. He said what is the bad news? I said, can you 
believe that we named the highway bill after somebody's wife? 
And he said so what is the good news? And I said I am going to 
name it SAFETEA-STU, after him.
    [Laughter.]
    Senator Boxer. He said he would absolutely destroy me limb 
from limb if I did it. So, we went to MAP-21.
    [Laughter.]
    Senator Kyl. Thank you, Madam Chairman.
    It is my pleasure to introduce Victor Mendez, the 
President's nominee to serve as Administrator with the Federal 
Highway Administration.
    Victor will bring a wealth of experience to FHWA, primarily 
from his years of experience at the Arizona Department of 
Transportation. We call it ADOT, and that is where I got to 
know Victor. He joined ADOT in 1985 as a civil engineer and 
quickly worked his way up through the ranks. By 2001, Victor 
was appointed by then-Governor Janet Napolitano as Director of 
ADOT and served in that capacity until February of this year.
    As Director, Victor led an organization of over 4,600 
employees with an annual operating budget of approximately $430 
million. The 5-year capital budget consisting primarily of 
highway projects was approximately $6 billion in State and 
Federal funds. It needs to be much more than that, 
incidentally, I would mention to my two colleagues.
    The transportation issues that Arizona faced during 
Victor's tenure, population growth, outdated infrastructure, 
funding obstacles, prepared him well for his role as 
Administrator of FHWA. Instead of maintaining the status quo, 
Victor has had the vision to implement many new financing, 
technological and research methodologies that were used to meet 
many of Arizona's transportation challenges.
    For instance, Victor successfully accelerated the 
construction schedule for the Valley Regional Freeway System in 
the Phoenix area, advancing the project's completion from 2014 
to 2007. He also led the Arizona management of the construction 
of the Hoover Dam Bypass Bridge with Nevada and the United 
States Department of Transportation. The Hoover Damn Bypass 
Bridge is a $241 million project that has transportation 
security and trade implications. With Victor's leadership, the 
project is on budget and expected to be completed next year.
    I have no doubt that Victor will continue to utilize 
innovative methods to ensure that our Nation's transportation 
infrastructure needs are met.
    And to the point you made, Madam Chairman, we discussed the 
financing issues that he will necessarily face. He has got a 
lot of ideas and he does not think we can rely on one silver 
bullet. He says there are a whole variety of things that have 
to be utilized. So, I know you will be working with him on 
that.
    Finally, to round out his transportation experience and 
demonstrate other things that he has been willing to do in his 
work for the State of Arizona, he also served as President of 
the American Association of State Highway and Transportation 
Officials and co-chaired the Transportation Infrastructure and 
Ports Committee of the Arizona-Mexico Commission, which in 
Arizona is a big deal.
    In 2008, Victor was elected as Leader of the Year in Public 
Policy in Transportation by the Arizona Capitol Times. So he is 
recognized as a leader, and I commend the President for 
choosing such a fine candidate and congratulate Victor on his 
nomination.
    I look forward to working with him and commend him to the 
Committee.
    Thank you, Madam Chairman, for your courtesy.
    Senator Boxer. Thank you very much, Senator, and we know 
that you have places to go so please have a good day and we 
will see you on the floor of the Senate.
    Senator Kyl. Thank you.
    Senator Boxer. Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Madam Chairman, I have the same problem 
that I always have on Tuesday mornings. We have the Armed 
Services Committee hearing. We have General McChrystal there, 
and it is imperative that I be in both places.
    I want to welcome Mr. Mendez. I have had a chance to talk 
to him in my office and we have a lot of mutual friends, one of 
which is our Secretary of Transportation, Gary Ridley. I have 
often said that Gary Ridley, in my opinion, is the best 
Transportation Secretary in America. I highly respect his 
opinions, and he holds Mr. Mendez in very, very high regard. I 
think we are fortunate. I agree with Senator Kyl, we are 
fortunate that the President has chosen to nominate Victor 
Mendez to this position.
    The challenges in continuing to provide the safe and free 
transportation network have really never been greater. We went 
through a problem last fall where we came up with a shortfall, 
and that shortfall came from the fact that the increase in the 
fuel causes a decrease in the revenues that are directed to the 
Highway Trust Fund. A lot of people think it is a percentage, 
but it is not, it is a centage. So that was a problem.
    We were able to correct that problem by going and undoing 
something that should not have been done in 1998 when Senator 
Clinton took $8 billion from the Trust Fund and put it into the 
General Fund. When I look at that, I think that took care of 
the crisis then. We have another crisis now.
    I think there are a couple of things that we can do. I just 
offer this, not necessarily asking any questions since I 
probably will not be here during the question and answer time. 
One is we were successful in getting that, but that was $8 
billion and that did not include the interest over a 10-year 
period. We have a figure calculated for that right now which 
should be very helpful. The second thing is that, with the 
unprecedented spending that has never happened before in the 
history of this Country, the hundreds of billions of dollars, I 
cannot believe that we have such a low priority on 
infrastructure. So, it is complicated. And the reauthorization 
is set to expire, as the Chairman said, in October.
    Solving these challenges will require us all to work 
together. Unfortunately, there was a troubling development 2 
weeks ago. This Administration hosted a conference call about 
the status of the Highway Trust Fund, sharing new technical 
information about the inability of the Trust Fund to make 
required reimbursements to States. The White House set up this 
conference call and only invited Democrat staff to participate. 
This is unacceptable.
    One of the things that I would ask you, and I ask everyone 
that is nominated, would you commit to responding to the 
minority side the same as you would respond to any request that 
comes from the majority side during your tenure after you are 
confirmed, which you will be?
    [Mr. Mendez responds in the affirmative.]
    Senator Inhofe. Let the record reflect that he said yes.
    All right. I look forward to working with you. We have a 
huge problem in front of us. It is something that is 
insurmountable. As often as Chairman Boxer and I disagree on 
many issues, we agree on the infrastructure. And the problem 
that we have in this Country is that it is not enjoying the 
high priority that it should enjoy.
    We were proud of the amount of money that we were able to 
get in the 2005 Reauthorization Bill, but, in retrospect, that 
really just barely maintained what we already had. I agree with 
the two Governors and Mayor Bloomberg who are coming up with 
ideas on really getting a more robust bill. I think if we are 
going to be able to face the problems that are out there, we 
are going to have to think in bigger numbers. But we have to 
get there.
    I look forward to your testimony and your confirmation.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Thank you, Chairman Boxer. I would like to welcome Mr. 
Mendez. I have met with this nominee and I believe after our 
conversation that he is well qualified for this important 
position. The Federal Highway Administrator has always been a 
valuable partner of this Committee during the re-authorization 
process and I expect that this next bill will be no different.
    I am pleased that the Administration has chosen such a 
qualified individual, and someone who recognizes the diverse 
transportation needs of this country. Heavily weighing in your 
favor was a conversation I had with my State's Secretary of 
Transportation, Gary Ridley, who proudly relayed his support of 
your nomination. I greatly respect the opinion of Secretary 
Ridley, whom I believe is the best Transportation Secretary in 
the country.
    The challenges in continuing to provide a safe and free 
flowing transportation network have never been greater. Making 
matters worse, we recently learned that the Highway Trust Fund 
will run out of money sometime before August of this year, and 
will require an infusion of $5 billion to $7 billion to get 
through the rest of fiscal year 2009. An additional $8 billion 
to $10 billion will be required in 2010.
    Secretary Ridley has notified me that if we fail to fix the 
trust fund Oklahoma and most other States will not have the 
cash to honor infrastructure projects that have already been 
agreed to. As a result, my State will be forced to deprogram 
between $50 million and $80 million in projects. This will be 
done by canceling new projects and existing contracts that have 
already been signed, in addition to slowing down projects that 
have already broken ground. Clearly this would have a 
detrimental effect on the economy and will negate any gains 
made by the stimulus--which as I've said before, dramatically 
underinvested in infrastructure.
    This truly complicates our efforts to reauthorize SAFETEA, 
which expires this October. Solving these challenges will 
require us all to work together. Unfortunately, there was a 
troubling development 2 weeks ago. This Administration hosted a 
conference call about the status of the Highway Trust Fund, 
sharing new, technical information about the inability of the 
Trust Fund to make required reimbursements to States. The White 
House set up the conference call and only invited Democratic 
staff to participate. This is completely unacceptable.
    The last Administration was widely criticized last August 
for not being more open and transparent with Congress and 
States over this very issue. I would have hoped this 
Administration would not repeat mistakes previously made and be 
open and transparent--especially with technical information.
    At confirmation hearings, I ask every nominee if they will 
share information with both sides of the aisle at the same 
time. I will ask you the same thing, but will add a very strong 
caution. I cannot support your nomination unless you commit to 
me that the minority will be treated equally in getting 
information and responses to questions from the FHWA. Will you 
make such a commitment to me now?
    Thank you. I look forward to your confirmation and working 
with you.

    Senator Boxer. Thank you, Senator.
    Senator Udall.
    Senator Udall. I am going to pass so that we can get to the 
witness. Thank you very much, Madam Chair.
    Senator Boxer. Thank you.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Madam Chairman, and Ranking 
Member Inhofe.
    I want to thank you, Mr. Mendez, for your being here today 
and your willingness to serve in this new capacity. And I thank 
your family for their past sacrifices and for the sacrifices 
that they will make in order to serve your Country.
    Having served as a mayor, Governor and now as a Senator, I 
understand the different needs, concerns and responsibilities 
that each level of government brings to bear on the challenges 
we face as communities and as a Nation. I am very pleased that 
you are familiar with the State and local perspective, having 
served as the Director of the Arizona Department of 
Transportation and then serving as President of AASHTO.
    I believe your experience with the FHWA at the State 
Department of Transportation level is going to serve you well 
in performing your job. I am very anxious to have you on board 
because I think that your experience is going to be valuable in 
helping us put together what I would like to consider as a new 
paradigm in terms of a transportation piece of legislation.
    I am also hopeful that you will have the courage to stand 
up and influence the Administration to understand that if we 
are going to do the job that we need to do in terms of our 
service transportation in this Country, we are going to have to 
have more money. And one of those sources of revenue has to be 
an increase in the gas tax. I know that does not go down very 
well with some folks, but the fact of the matter is almost 
everybody in this Country that cares, in fact, almost all of 
them that care, understand the realities of that situation.
    I am not going to go into details. You know what the needs 
are. If you take the Service Transportation Commission and the 
folks that came back about recommendations, we are talking 
about 
$1.6 trillion over this 5-year period. We know that is not 
possible. But we are talking in the neighborhood of $450 
billion to $500 billion in order to just get us where we are 
supposed to be.
    SAFETEA-LU, we fell behind. We knew it was not enough at 
the time. It was worse because of inflation, and now we are 
going to have to go back and find some more money if we are 
just going to fund it at the level that we funded in the past.
    So, I want you to know that I really look forward to 
working with you. I hope you are allowed to be engaged in this 
work that we are doing right now. I hope it is something very 
special. You have probably been looking at this for a long 
time. Now, you have got a chance to do something about it. So, 
I hope you take advantage of it.
    Thank you.
    [The prepared statement of Senator Voinovich follows:]

          Statement of Hon. George V. Voinovich, U.S. Senator 
                         from the State of Ohio

    Madam Chairman and Ranking Member Inhofe, thank you for 
holding this nomination hearing.
    I would like to thank you, Mr. Mendez, for being here 
today, and for your willingness to serve. Even more 
importantly, I want to thank your family for their sacrifices.
    Having served as a mayor, Governor and now as Senator, I 
understand the different needs, concerns and responsibilities 
that each level of government brings to bear on the challenges 
we face as communities and as a Nation. I am very pleased that 
you are also familiar with the State and local perspective, 
having served as director of the Arizona Department of 
Transportation, and as president of the American Association of 
State Highway and Transportation Officials (AASHTO). I believe 
your experience working with FHWA at the State DOT level will 
serve you well.
    I am very anxious to have you on board because your 
experience will be valuable to provide the input we need to 
change our transportation policy. I think it is important for 
you to do two things as the next Administrator. First, you can 
provide input on how we should draft the next transportation 
reauthorization bill. And, second, I hope you can convince the 
Administration that without a gas tax increase, we cannot do 
what we need to do.
    As you certainly know, the Nation's transportation needs 
greatly exceed current investment at all levels of government. 
DOT's 2006 Conditions and Performance Report stated that the 
average annual investment level needed just to maintain the 
current condition and performance of our highway system is 
$78.8 billion, while the cost necessary to improve our highways 
and bridges would be $131.7 billion.
    More recently, the National Surface Transportation 
Infrastructure Financing Commission reported the Federal 
highway and transit funding gap totals nearly $400 billion in 
2010 through 2015 and grows to about $2.3 trillion through 
2035.
    Although SAFETEA-LU provided increased funding for the 
States and localities to improve the condition of deteriorating 
and unsafe highways and to increase capacity and performance, 
the system is still aging, and in need of additional 
investment. I predicted that the money spent from that 
authorization bill would not be enough. Sadly, I was right. 
Because of the rising costs of construction and energy, the 
purchasing power from SAFETEA-LU has significantly declined. 
This bill did not keep up with inflation, and as a result, we 
have fallen behind. According to DOT, the Highway Trust Fund 
will need an additional $5 billion to $7 billion to keep it 
solvent through the end of fiscal year 2009.
    I believe our failure to invest in the improvements 
necessary to keep pace with our growing population and 
increasing demands remains a significant obstacle to moving our 
economy forward. American businesses cannot compete globally, 
without strong infrastructure at home.
    These are daunting challenges facing FHWA, DOT, and this 
Committee as we move toward reauthorization. I look forward to 
hearing your thoughts on the next reauthorization bill, your 
suggestions for ensuring that enough funding is being invested 
in our highways and infrastructure, and your vision for FHWA's 
role in ensuring that our Nation has the transportation 
infrastructure necessary to remain economically competitive for 
future generations.
    Again, I think you for coming before this Committee today, 
and for your willingness to serve your country.

    Senator Boxer. Thank you so much. I love it when you get so 
enthusiastic.
    [Laughter.]
    Senator Boxer. It is good. It is good.
    Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Chairman Boxer.
    Congratulations, Mr. Mendez, for your nomination. We look 
forward to working with you.
    The role of your agency is very important in my State. It 
could not have been more clear than the day the bridge 
collapsed on August 1st, 2007, taking 13 people's lives. I said 
that day that a bridge just should not fall down in the middle 
of America. Not an eight-lane highway and not one that is just 
six blocks from my house.
    So, I have spent a lot of time working with, I am sure you 
are familiar with Chairman Oberstar, who is also from 
Minnesota, working with him on the issues of bridge safety. We 
have a bill that I am sure parts of which we will try to 
incorporate in the upcoming SAFETEA-LU legislation. But this is 
about making sure that the money spent on bridge maintenance is 
truly spent on bridge maintenance and, in fact, is not spent on 
building new projects that are good for ribbon cuttings but 
then allow our other infrastructure to deteriorate in this 
Country.
    According to the Federal Highway Administration, which we 
hope you will soon head up, more than 25 percent of the 
Nation's 600,000 bridges are either structurally deficient or 
functionally obsolete. We have many challenges here, not only 
for safety, but also, of course, for economic development. We 
got a good start with the Recovery Act. Also, there is the 
congestion that we have in so many of our areas where workers 
remain idle in traffic. Americans spend 4.2 billion hours a 
year stuck in traffic at a cost to the economy of $78.2 billion 
or $710 for each motorist.
    So to me this involves not just better roads and bridges, 
but also a mix of transportation options. I have been very 
surprised, pleasantly surprised, at the support for rail in our 
State in areas of the State that did not traditionally support 
it. It just took the Vice President out to St. Cloud, Minnesota 
where we are building the North Star Rail very close to St. 
Cloud. That is something that we care a lot about.
    And, of course, when it comes to highways, the right use of 
these roads, including smart ideas of how to control traffic 
better. We have been working with IBM, which has a substantial 
project in Minnesota, on some of the technology that they want 
to develop to have intelligence transportation solutions. So it 
is going to be a mix of special lanes for bikes, pedestrians, 
and also better roads and bridges.
    We are very much looking forward to working with you. Thank 
you for appearing here today.
    Senator Boxer. Thank you, Senator.
    We will go to Senator Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair, and Senator 
Inhofe.
    It is a pleasure to welcome Mr. Mendez and to join with the 
hallelujah and amen chorus in applauding your nomination, 
recognizing the great contributions you have made, not only in 
your State, but in your service in the national organization.
    As a former Governor, as we have discussed, I understand 
full well the challenges you had to face, and having someone in 
your position, who has gone through that, is extremely 
important. And I believe you also have worked closely with our 
director in Missouri, Pete Rahn. We had a good opportunity to 
talk about that.
    These are tough times. You have got a really tough battle 
ahead. You face an insolvent Highway Trust Fund that will need 
more than a Band-Aid to fix, rising construction costs, and a 
transportation system that literally is bursting at the seams.
    It is going to require long-term vision, vision for surface 
transportation with all of the other components we have 
discussed which go into that transportation system. It is 
quality infrastructure, in my view, and I believe you share 
that. It connects people and communities with one another, it 
attracts and sustains jobs and a high quality of life. I do not 
think there is anything more important the Government can be 
doing in this Country and certainly, in Missouri and across the 
Country, there is a growing concern about the real strains 
coming up in transportation.
    Vehicle miles traveled remain at historic highs, congestion 
rates are up with more and more people sitting in traffic, 
extra trucks carrying products to and from businesses around 
the globe, construction. Construction is a real problem. It is 
not only frustrating, but it takes a real toll on our economy 
and our productivity.
    We have to work together on the authorization bill to make 
sure that essential infrastructure investments provide a good 
return to taxpayers. You and I have spoken about some of the 
additional alternatives, ideas that have come up for dedicated 
commercial lanes for truck traffic and how to fund them.
    And another area where I know you share concern is on 
project delivery times. As we speak the costs of transportation 
projects around the Country are increasing while contractors, 
municipalities and State DOTs wade through the mess of 
bureaucracy that is our current project development process. We 
cannot afford to continue on the path where it takes 10 to 15 
years to deliver highway projects. It does not take a 
mathematician to figure out that such as impediment means 
project costs tripling, congested highways, increased 
productivity and compromised road safety.
    We thought we had made some progress on the streamlining in 
the SAFETEA bill on which we worked very hard with the help of 
your department. But, obviously, we have got to do more. We 
have got to deliver these projects, make sure we touch all the 
bases, but do it in an efficient manner.
    Then there is a real problem, and I have another hearing as 
most people do today, that I would ask you to address. What are 
we going to do about the $8.7 billion rescission? We are 
talking about spending big money on shovel ready projects. This 
$8.7 billion rescission that we had to put in SAFETEA is going 
to unstimulate, unstimulate, projects that are shovel ready, 
ready to go. And right now the prospect of shutting them down 
means that we are not doing the work of preparing to put people 
to work on highways where they could be doing something.
    I think it was a big mistake. I am very sorry that the 
Stimulus Bill, which I think got off track, only put 4 percent 
into transportation and did not even deal with the rescission. 
Now, of all the things that we ought to do, we ought to do 
something to stop Government action that will unstimulate the 
economy. I look forward to hearing any thoughts you have on 
that.
    I would say, also, I noticed that as Deputy Director of 
ADOT you oversaw one of Arizona's first design-build projects. 
It seems to be working in Missouri. I hope you will be an 
advocate for that, that can reduce some of the burdens of long 
project delivery time at the Federal level as well, and we look 
forward to reading your testimony.
    I congratulate you on your nomination and, most of all, as 
my colleagues have said, we look forward to working with you on 
this very challenging and important job you have.
    Thank you.
    Senator Boxer. Thank you, Senators, all.
    I just wanted to say, Mr. Mendez, given all of the problems 
that we have thrown at you, we hope that you will still want 
this job. We obviously all agree that you are an excellent 
choice.
    So it is your time now. Speak to us. If you have any family 
members here, or friends, please feel free to introduce them, 
and then once you get started with your statement we will start 
the clock.

 STATEMENT OF VICTOR M. MENDEZ, NOMINATED TO BE ADMINISTRATOR, 
      FEDERAL HIGHWAY ADMINISTRATION, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Mendez. Thank you, Chairman Boxer. I do appreciate the 
magnitude of the job here.
    I will not be introducing anyone. I think it is just time 
to get down to business and, as you have all articulated very 
well, we have a lot of challenges. So I will begin with my 
statement right now.
    Good morning, Chairman Boxer, Ranking Member Inhofe, and 
Members of the Committee. I appreciate the opportunity to be 
here today as you consider my nomination for Administrator of 
the Federal Highway Administration (FHWA).
    I would like to extend my sincere thanks to Senator Kyl for 
that very kind introduction. I really appreciate that from him.
    It is an honor and privilege to have been recommended by 
Secretary LaHood and nominated by President Obama for this very 
important position. I appreciate the significant role this 
Committee plays in establishing transportation policy and, if 
confirmed, I look forward to working closely with all of you to 
improve the delivery of the Federal-aid highway program.
    As the former director of the Arizona Department of 
Transportation and former president of the American Association 
of State and Highway Transportation Officials (AASHTO), I am 
very well aware of the many responsibilities and challenges 
that lie ahead for the next Federal Highway Administrator. In 
the immediate future, we near the expiration of the Safe, 
Accountable, Flexible, Efficient Transportation Equity: A 
Legacy for Users (SAFETEA-LU), coupled with the impending cash 
shortfall in the Highway Trust Fund. Then, in the long term, we 
must identify sustainable funding mechanisms to address our 
aging infrastructure and congested roads, all in the face of a 
struggling economy.
    Our highways must be made safer. Our transportation system 
must be equipped to meet the growing demands of freight 
movement if we are to compete in a global economy and stimulate 
economic growth in the Nation.
    We must also consider multimodal solutions to reduce the 
transportation sector's greenhouse gas emissions. I share 
Secretary LaHood's commitment to safety as the highest priority 
at the Department. Although fatalities and injuries on our 
roads are declining, too many people still die or are injured 
in highway crashes each year. If confirmed, I will work with 
the Administration, Congress, the States, transportation safety 
advocates and the public to continue the downward trend in 
highway fatalities and injuries.
    I will also focus on the successful deployment of highway 
dollars under the American Recovery and Reinvestment Act 
(Recovery Act). Like the President and the Secretary, I 
strongly believe that, through the efficient implementation of 
Recovery Act projects, FHWA plays a key role in creating jobs, 
putting people back to work, and keeping families from 
foreclosure.
    Another priority, if I am confirmed as the Administrator, 
will be to develop a robust transportation reauthorization 
solution in partnership with Congress, the Administration, 
Secretary LaHood, and the various transportation stakeholders. 
Too often, we think about economic competition among cities and 
regions within the United States. However, in the next 
reauthorization of surface transportation programs, we must not 
forget that America must compete with nations such as China and 
India.
    We must keep both rural and urban America moving and 
economically competitive in the 21st century. We must meet the 
needs of the American public and business community to ensure 
safety, a better quality of life and a vibrant economy. We must 
support environmental stewardship, blend public and private 
sector collaboration, and ensure accountability and 
transparency of public expenditures in transportation.
    I will work closely with Secretary LaHood and other 
officials to consider coordinated strategies and multimodal 
solutions to address our transportation challenges.
    If confirmed, I will also encourage the use of innovation, 
research and technology to solve our transportation problems. 
We need to identify and develop innovative environmental, 
congestion and finance solutions, and share best practices in 
the delivery of projects and in other areas of importance to 
transportation stakeholders.
    I am mindful of the challenges that face the next 
Administrator. With my background in civil engineering and a 
transportation career spanning over 25 years, including at the 
Arizona Department of Transportation for seven and one-half 
years, I bring the experience, knowledge, management and 
leadership skills to bring FHWA through the challenges that lie 
ahead. The employees at FHWA possess an incredible wealth of 
knowledge and expertise, and I look forward to the opportunity 
to work with them as well to find solutions.
    I am committed to working with you, the Administration, 
Secretary LaHood, and all transportation stakeholders as we 
look for ways to meet our Nation's transportation needs.
    Madam Chairman, thank you for the opportunity to appear 
before you today and for your consideration. I would be happy 
to answer your questions.
    Thank you very much.
    [The prepared statement of Mr. Mendez follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
    Senator Boxer. Thank you so much.
    I will start, and each of us will have 5 minutes and as 
long as people want to stay.
    I have to say that at 10 minutes of the hour, I have to go 
to the floor to speak in favor of Gina McCarthy, who is up for 
a very important post at the EPA, so if Senator Lautenberg is 
not here, Senator Udall, would you take the gavel? Oh, thank 
you.
    The Obama administration told us that the Highway Trust 
Fund will run out of cash before August. You were Director of 
the Arizona DOT when this same situation developed last fall. 
What were the impacts on your program? And, based on that 
experience, how will you manage the Federal payments?
    Mr. Mendez. Madam Chairman, I think it is important that 
you do frame it in terms of drawing from my experience in 
Arizona. Clearly, one of the issues that we faced last year as 
we became aware of the pending shortfall, at the time, was the 
fact that we were notified at pretty much the last minute. So 
one of the things that I know the Administration is currently 
undertaking is advance notification of the situation.
    As you are aware, and it has been mentioned here before, a 
lot of that communication has already started with you and 
members of your Committee. I think it is important to keep that 
in mind. Early notification is, indeed, very important.
    With that said, I think that provides the States the 
opportunity to prepare themselves in case there is not a 
solution to the shortfall that is expected here in the summer, 
which I understand is sometime in August. I believe somebody 
here mentioned that we are anticipating a shortfall somewhere 
between $5 billion to $7 billion coming in August, and that 
would be one of my highest priorities if I am confirmed, and I 
would work with you very closely to ensure that we find a 
solution for this along with the Administration.
    Senator Boxer. Good. Could I just ask you now, will you do 
everything in your power to keep us all informed, Democrats and 
Republicans on this Committee, as to the deliberations? I think 
Senator Inhofe was concerned that he was not called by the 
Administration. So, will you be our liaison on those issues?
    Mr. Mendez. Madam Chairman, absolutely.
    Senator Boxer. Excellent.
    And my last question. Your predecessor, in both Arizona and 
as FHWA Administrator, Mary Peters, who I like very much, 
clearly supported devolution of most, if not all, Federal 
highway programs back to the States. On that, I did not agree 
with her. And I am happy to report that the big four over here 
already have had our meetings and we, across party lines, 
believe a Federal role must be continued. I would like to ask 
you, because she was pushing for devolution, do you think that 
a strong Federal role is needed to assure that our highway 
system is in good condition and serves the entire Nation?
    Mr. Mendez. Madam Chairman, it is a very interesting 
question that you raise. From my perspective, and again I have 
not had the opportunity to have detailed discussions on 
principles with the Secretary being in this nomination 
situation, but I clearly believe that there is a need for 
national strategies and a national program to ensure that we, 
as a Nation, address national and regional issues.
    In many cases, as you are aware, States may look at their 
own needs, but there are times when you have multi-State and 
regional issues that should be coordinated, probably on a 
national policy level. So, I believe there certainly is a role 
for the Federal Government in establishing the long-term future 
for transportation and it needs to be coordinated through some 
national oversight, and a national policy that address future 
needs.
    Senator Boxer. Well, I think that what you have said really 
underscores what came about in the 1950s by President 
Eisenhower when he envisioned this kind of a role. I do have 
two quick, three quick questions, just a matter of, we have to 
do this to make sure that you get confirmed. So, I will ask 
each one and then ask you to say yes or no.
    Do you agree, if confirmed as Administrator of the Federal 
Highway Administration, to appear before this Committee, or 
designated Members of this Committee and other appropriate 
committees of Congress, and provide information subject to 
appropriate and necessary security protection with respect to 
your responsibilities as the Administrator?
    Mr. Mendez. Yes.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
communication of information are provided to this Committee and 
its staff and other appropriate committees in a timely manner?
    Mr. Mendez. Yes.
    Senator Boxer. And last, do you know of any matters which 
you may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed as Administrator?
    Mr. Mendez. No.
    Senator Boxer. Excellent.
    So, what I am going to do is hand the gavel over to Senator 
Lautenberg, who has agreed to take over. I will call on Senator 
Voinovich and then, Senator Lautenberg, if you would continue 
this hearing and complete it, that would be great. I have to go 
speak on the floor about our nominee, Gina McCarthy.
    Thank you, Senator Lautenberg.
    Senator Voinovich.
    Senator Voinovich. Thank you, Madam Chairman.
    Mr. Mendez, every year, an estimated $417 billion of 
freight crosses the Brent Spence Bridge across the Ohio River 
in Cincinnati. That is between Cincinnati and Kentucky. That is 
roughly equivalent to 3 percent of the United States Gross 
Domestic Product in 2008. The amount of freight traffic is 
expected to increase to $830 billion by 2030.
    This bridge has five times more accidents than the average 
highway in the State of Ohio. The bridge is the biggest choke 
point in the Country in terms of the interstate system. It 
contributes probably in the top five in terms of degradation of 
our air. In fact, EPA is doing a study in the vicinity there, 
we have housing, on the impact diesel emissions are having on 
children's health.
    It is important to the infrastructure of the American 
economy. The cost at this stage of the game is nearly $3 
billion, which is more than the total appropriation for both 
Ohio and Kentucky on an annual basis.
    I would like to know what your position is in terms of 
creating a separate funding stream for projects with national 
significance, such as the Brent Spence Bridge. This is one the 
things that the Committee is considering in terms of the next 
highway bill, of looking out around the Country and looking at 
rankings, for example, big congestion problem too, of course, 
with this. What is your thought about that approach?
    Mr. Mendez. Senator, I am not specifically familiar with 
the location that you mentioned to me. But I think it is very 
important on a broad basis to comment on----
    Senator Voinovich. It is the second most used bridge in the 
interstate system in the Country.
    Mr. Mendez. OK. In terms of some of these major, as I 
mentioned earlier, regional and national projects, it is 
important for us, on a national basis, to establish some level 
of policy that may address some of these issues now. I also 
need to be able to work with the Secretary to ensure that we 
are all on the same page. At this point in time, I have not had 
the opportunity to talk about some of the principles and some 
of the specific elements you mention here.
    Senator Voinovich. Well, the fact of the matter is that you 
have done the job in Arizona. You have been the President of 
ASSHTO. You have got to have had a $35,000 look at this and, 
overall, what is your thought about the fact that we should do 
these kinds of projects that are really impacting negatively on 
our commerce, environment and the rest of it?
    Mr. Mendez. Right. Senator, one of the discussions that I 
have had recently is about some of the literature where we have 
a map that shows the major congested arteries throughout the 
United States. I think that is the kind of information that we 
need collectively in Congress, with the Administration, to 
begin to look at as we consider issues that are going to be 
very important within reauthorization and sit down and develop 
national strategies to address situations such as what you just 
described. It may be part of that artery map that all of us 
have been looking at.
    But beyond that, I think that it is important for us to 
work collectively and try and bring all of these issues to the 
table and try and come up with national strategies or policies 
to address some of the issues such as you described.
    Senator Voinovich. And there is the issue of how long it 
takes to build a bridge. We have another bridge over on I-90 
over the Cuyahoga River. It was started out at $500 million. 
Now it is $1.6 billion with all of the red tape that one has to 
go through in order to go forward with a project. Again, it is 
just impossible.
    I work very, very hard. In fact, I was pleased that AASHTO 
honored me several years ago for what we did with 4(f). It is 
really interesting that we revised the 4(f) process and, to 
this date, the Department of Transportation has not finalized 
the regulations for this. It appears to me that there is not 
anybody over there that is really staying on top of trying to 
speed these, you know, move this along. Thirteen years the 
National Commission said it takes on these major issues.
    What are you going to do about that?
    Mr. Mendez. Mr. Senator, I understand the situation. I am 
very well aware that the project delivery process does take a 
long time. Similar to what Senator Gillibrand mentioned 
earlier, there have been some innovations that were implemented 
where there have been crises, where we have been very 
innovative and very creative in executing project delivery.
    If I am confirmed, I would be very happy to work with all 
of you on some of these solutions. I can tell you that is an 
issue. We have worked with many stakeholders and tried to 
streamline the entire project delivery system, not with respect 
to just environmental issues, not just the bridge issues, but 
the overall project delivery process. Thirteen years is, in 
fact, way too long.
    Senator Voinovich. Can we get a commitment from you that 
you are going to get the regulations done on 4(f) that we got 
done in the last highway bill, pronto?
    Mr. Mendez. Mr. Senator, I will look into that and I will 
do whatever I can within my power to execute that.
    Senator Voinovich. Thank you.
    Senator Lautenberg [presiding]. Thank you.
    Next we will hear from Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman.
    Congratulations, Mr. Mendez, on your nomination and thank 
you for your courtesy visit to my office last week or several 
weeks ago.
    I wanted to ask you about a couple of issues. First is the 
issue of railroad crossing safety, which I am sure you have 
dealt with as the highest highway official in the State of 
Arizona. New Mexico has almost 1,700 rail crossings, yet 
receives just $1.5 million in Section 130 highway funding under 
FHWA for rail safety. This level of funding only allows the 
State to upgrade maybe five to seven crossings per year. As you 
are probably aware, AASHTO supports increasing funding for the 
Section 130 Grade Crossing Program, which has ended up saving 
thousands of lives since its inception in the 1970s.
    The first question: do you agree that Section 130 should be 
funded at current or higher levels? How will work to implement 
rail safety programs to prevent rail crossing accidents? And 
will you work to introduce new technologies to improve rail 
safety, especially for tracks that cross roads and pass through 
populate areas?
    Mr. Mendez. Thank you, Senator. If I might, please, I would 
like to correct myself. I did not mean to say----
    Senator Udall. Senator Klobuchar.
    Mr. Mendez. I am sorry for that mistake.
    Senator Udall. We all recognize Senator Klobuchar. You 
would not be able to mislead us. We know her, we know her 
laugh. Do not worry.
    Mr. Mendez. My apologies, Senator.
    Let me address the Section 130 issue. Again, drawing from 
my experience in Arizona, throughout the Nation, that is an 
issue. I can tell you the Administration, Secretary LaHood, as 
well as a lot of us, I do, in fact, as I mentioned in my 
earlier comments, place transportation safety as our highest 
priority. So, if confirmed, I really do look forward to working 
with you as we develop these reauthorization scenarios, 
strategies and principles to address specifically those needs 
and see what we can do to actually resolve some of those 
issues.
    Senator Udall. One of the other issues is the issue of 
green highways or new technology. I am very interested in ways 
that roads can be made more green through the use of recycled 
construction materials, methods to reduce runoff and other 
innovations. And I hope that you will work diligently to push 
the envelope on innovation.
    As the Arizona Highway official and also on AASHTO, I am 
sure you are very familiar with Indian reservation roads. The 
Indian Reservation Roads Program is important for addressing 
the transportation challenges facing tribes in my State and 
across the Nation.
    The Stimulus Package made available $310 million 
specifically for the Indian Reservation Roads Program. However, 
tribes in New Mexico are actually seeing a decline in their 
annual funding under this program, apparently do to how the 
Federal Highway Administration includes a vast number of 
county, State and even interstate roads in the inventory of 
roads supported by the Indian Reservation Roads Program.
    Congress intended this program to be primarily for tribes, 
rather than for roads that have other sources of funding. I am 
sure you are aware of this situation in Arizona because you 
also share the Navajo Reservation with New Mexico and Utah. Do 
you have any recommendations on how we can restore the program 
to its original purposes?
    Mr. Mendez. Mr. Senator, as you just mentioned, being from 
Arizona, we clearly have a lot of coordination functions with 
the Native American tribes there in Arizona. So I am familiar 
with the issues.
    I do understand the scenario that, on a national basis, the 
Indian tribes do lack in terms of resources. I would be very 
happy to work with you on those same issues to ensure that 
priorities are established properly so that we can get the 
maximum return out of those investments on the Indian tribes 
and the tribal reservations.
    Senator Udall. Thank you, Mr. Mendez, and I will submit 
additional questions for the record and we look forward to your 
speedy approval and you assuming your position. Thank you very 
much.
    Mr. Mendez. Thank you.
    Senator Lautenberg. Senator Klobuchar.
    Senator Klobuchar. Thank you, Mr. Chairman.
    Mr. Mendez, I am going to be soon introducing legislation 
called Dig Once with Senator Warner and others and it will 
incorporate road construction projects with the deployment of 
broadband infrastructure on Federal projects. Road construction 
season in Minnesota is short because of our weather and the 
multiple diggings are a big hassle and cost a lot of money for 
taxpayers.
    So we are trying to encourage, as much as we can, a joint 
deployment of these. Have you had any familiarity with this in 
Arizona? Or are you willing to work with us to develop a policy 
on this?
    Mr. Mendez. Senator, thank you for the question. As I 
mentioned earlier in my comments, I am an advocate for 
research, technology and innovation. I believe the idea that 
you raise in terms of what can we do to implement broadband, 
for example, that is a great idea. I like that. So, I am more 
than happy to work with you on these innovative solutions. 
There are a lot of great ideas out there and I would be more 
than happy to work with you on that.
    Senator Klobuchar. I talked, in my opening comments, about 
the bridge maintenance and the Bridge Maintenance Fund. I do 
not know if you are familiar with this issue and the bill that 
I had with Senator Boxer and Senator Durbin, as well as 
Congressman Oberstar was sponsoring in the House, focusing on 
requiring States to use their bridge maintenance money for 
bridge maintenance instead of other things.
    I know the States want some flexibility when it comes to 
these funds, but it turned out some of them were being used for 
projects completely unrelated to bridge maintenance. I wonder 
if you had, again, any familiarity in your past job or any view 
on this?
    Mr. Mendez. Yes, Senator, clearly, probably every State 
faces the same situation. As you are aware, as State officials, 
we have advocated for that flexibility. At the same time, I 
would say to you, once we settle in on solutions with Congress 
and the Administration, we absolutely do intend to follow the 
letter of the law. I would like to add to that that safety, 
whether it is bridge safety or just roadway safety, is of 
highest priority to all of us.
    Senator Klobuchar. Given your experience as a State 
transportation leader, do you have any just general ideas about 
how to improve the areas where the Highway Administration can 
improve on the Federal level?
    Mr. Mendez. Senator, as I mentioned in my opening comments, 
I do have some priorities that I want to pursue very quickly, 
including implementation of the economic recovery projects and 
such and, of course, reauthorization. But when I talk about 
innovation, research and technology, those are the arenas where 
I believe we can really drill into looking at different ways of 
conducting business, not just in terms of the technical 
elements of building highways, but also about innovations in 
terms of using technology, for example, to make a road safer 
and monitor bridges from a safety perspective, that kind of 
thing. So, that is sort of what I am looking for when I am 
talking about innovation.
    We have a lot of great ideas, a lot of great people in the 
industry and we should find some kind of a venue to really be 
able to flesh out, sit down and share those ideas and maybe 
even build on those ideas.
    Senator Klobuchar. How about public-private partnerships? 
You know we have talked about that as part of the solution to 
our transportation problems. There are a number of bills out 
there focusing on that or some kind of a fund or bonding. There 
are some bonding requirements or allowances in the Recovery 
Act, but can you talk about that? I know we will have a debate 
on how to fund this. We took money already from the General 
Fund, $8 billion, and may have to use that route again to try 
to fund this. Have you looked at this idea of public-private 
partnerships?
    Mr. Mendez. Senator, yes, indeed. It has been an issue that 
has been out there for several years now. I think the important 
thing, of course, is on a broader basis. We are looking for 
innovative ideas in terms of funding and financing. I believe 
public-private partnerships (P3s) do play an important role.
    However, I do want to caution that, in my mind, public-
private partnerships are not the silver bullet. It just seems 
to be that when we, collectively, as transportation and 
industry stakeholders come up with a final solution on 
transportation, that we are going to be looking at a compendium 
or a compilation of various sources of funding. I believe P3s 
play a very important role in that.
    Senator Klobuchar. Have you looked at that vehicles miles 
travel experiment that they did in Oregon as a way of funding 
things and do you think that has much promise? I know there is 
concern in rural areas about that.
    Mr. Mendez. Yes, Senator, being a former State Director, as 
that experiment was underway we watched and tracked it very 
closely through various discussions and dialogs at various 
conferences through AASHTO. We looked at that. It is an 
interesting and innovative approach. I believe as we begin to 
look at some of these solutions, the Secretary has been very 
clear that he wants to put all the ideas on the table. So, I am 
assuming that is what will happen.
    Senator Klobuchar. All right. Thank you very much.
    Senator Lautenberg. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair, and it is 
a pleasure to have you here today, Mr. Mendez.
    I wanted to start by just asking you to share your 
thoughts. I know that you are well aware that transportation 
emissions are one of the biggest contributors to global warming 
and a significant factor in our dependence on foreign oil. What 
are your thoughts on how this can be addressed in the process 
of planning and building transportation systems, specifically 
at the Federal Highway Administration?
    Mr. Mendez. Thank you, Senator. Let me begin by looking at 
the bigger picture. We look at the literature on greenhouse gas 
emissions and, depending on what you read, somewhere between 28 
to 33 percent of greenhouse gases are attributed to the 
transportation sector. With that in mind, it is important for 
us to look at those issues and see how transportation, 
specifically, can address that.
    Now, it is my understanding that within the Department 
there already is an internal working group looking at ways to 
adapt for some of these issues in terms of global warming and 
greenhouse gas emissions. It is my understanding that, under 
the President, there is an interagency working group underway 
that includes 13 agencies, including housing, to look at some 
of the broader policies beyond transportation because 
transportation needs to be integrated and coordinated, for 
example, with other housing policies and local land use 
policies.
    Then we look at, really, some of the issues specific to 
transportation. I believe there are four strategies that we 
traditionally consider and one of the strategies is that you 
need to begin to look at is to reduce vehicle miles traveled. 
We know that would be a major benefit. There are other 
strategies that involve the transportation sector. For example, 
low carbon fuels and improving vehicle technologies. So, there 
are a lot of strategies that are specific to the sector that 
need to be looked at.
    But it is not necessarily just a United States DOT effort. 
So, if I am confirmed, I would be more than happy to work with 
you on some of these ideas and some of your thoughts on this.
    Senator Merkley. Thank you. I look forward to that.
    One of the ideas that have pursued in Oregon is we have 
dedicated 1 percent of our State Highway Funds to bicycle and 
pedestrian infrastructure, which is kind of a win-win because 
it keeps more cars off the roads and reduces congestion, 
reduces global warming gases, and increases health from the 
exercise component. Do you see any sort of a parallel with what 
could be done at the Federal Highway Administration?
    Mr. Mendez. Senator, I believe, as we have listened very 
carefully to the President and the Secretary, multimodal 
options have been very important in terms of potential 
principles that will be laid out, livability concepts have been 
discussed very clearly, and I believe all of that fits very 
well with what you have just described. So, it is something 
that we need to continue to work on.
    Senator Merkley. Let me throw out another idea from Oregon. 
We have the Nation's first solar highway, which is utilizing a 
stretch of right-of-way to produce energy and feed it directly 
into the grid. The crude estimate is that, using about 2 
percent of the rights-of-way, the surplus rights-of-way on the 
shoulders, would easily meet all of the lighting demands of the 
highway system, and everything beyond that could be fed back in 
to provide renewable energy elsewhere. Large stretches of 
right-of-way with good access, in general, to transmission 
lines. Is that a concept that you have thought about or are 
interested in taking a further look at?
    Mr. Mendez. Mr. Senator, when I met with you, I believe the 
following day you were going to go visit that solar highway.
    Senator Merkley. I was and I have been there and I was very 
impressed.
    Mr. Mendez. OK, so I got the answer. I have not visited 
that highway. In fact, when Oregon DOT undertook that, I 
thought, wow, they beat me to the punch. Being from Arizona, 
which is sunny most of the time, I thought that should have 
been our initiative. But again, that is one of the types of 
ideas, the innovations that we need to be pursuing in 
transportation, to do exactly what may become a standard 
practice 20 years from now. And we will look back and say, look 
everybody is now doing it nationwide.
    Senator Merkley. Thank you. One more piece of 
infrastructure I am interested in is ways we can support 
electric vehicles. Do you have any thoughts about how that 
might be incorporated into the highway system?
    Mr. Mendez. Mr. Senator, I think, again, that is one of the 
issues that we need to really sit down, discuss in earnest and 
look at all the options. I have not personally taken the time 
to look at the elements that are important to make something 
like that happen. But clearly, under an innovations initiative, 
I would more than happy to sit down and work through those 
issues.
    Senator Merkley. Terrific. I really look forward to working 
with you. Thank you.
    Senator Lautenberg. Thank you very much, Mr. Mendez. 
Welcome.
    You bring a distinguished background to this opportunity 
and we are pleased and, very frankly excited about, the fact 
that you stand a very good chance of being confirmed and that 
you have an even better chance to make a huge difference in the 
way our Country travels.
    No matter where you go, there is too much traffic for the 
roads, delays. It does not matter what part of the Country you 
are in, almost what part of the world you are in. And the fact 
that you, in a major project in Arizona, were able to meet the 
target deadline by a substantial period of time, that kind of a 
record will earn you lots of friendships here and across the 
Country.
    When we look at the problems with congestion, it is not 
only not getting there on time, wherever there is, but it is 
the accompanying problems with environmental pollution that is 
just overwhelming us. And the imported oil problem is an 
enormous problem for Americans. The transfer of wealth is going 
the wrong way. We have got lots of problems, including the 
deficient and deteriorated bridges and infrastructure that we 
have.
    So, we are pleased about the change that is facing us with 
you coming with your experience and your record. And I want to 
work with you to address all kinds of things, particularly 
safety problems that threaten our families, such as the 
presence of large trucks on our roads.
    There is no question that trucks play a critical role in 
getting products that we rely upon from our ports and factories 
to our stores. But we have seen it in New Jersey. Trucks that 
are too heavy and too long pose a threat to our roads and 
bridges and the drivers and passengers that use them. Now, 
these large trucks weigh more than 80,000 pounds and can lead 
to bridge fatigue damage. And these trucks are responsible for 
a disproportionate share of highway deaths when compared to 
cars or small trucks.
    Despite their proven safety problems, proponents of bigger 
trucks have tried to weaken Federal highway laws to make trucks 
even heavier and bigger. My view is that adding bigger trucks 
to our roads is a recipe for disaster. I was able to write 
legislation some years ago to keep them only in the places that 
they were grandfathered and, this past April, I introduced a 
bill to protect our infrastructure and improve safety by 
helping to keep dangerously large trucks off our roads. If 
confirmed, I look forward to working with you, Mr. Mendez, to 
accomplish these and other goals.
    By way of information, the Committee has received letters 
from the following organizations in support your nomination: 
AAA, American Association of State Highways and Transportation 
Officials, American Counsel of Engineering Companies. I seek 
unanimous consent to insert these letters into the hearing 
record in my full statement and that record as well.
    [The referenced material follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. Yesterday, in New Jersey, we announced 
the availability of substantially increased rail service. Now, 
the corridor, it is not just the northeast corridor, it is the 
corridor that goes from New Jersey to New York, where hundreds 
of thousands of people make the crossing every day. We are 
working now on the development of a rail tunnel across the 
Hudson River and extending the availability of service there. 
When the tunnel is complete, we are going to be looking at 
22,000 fewer cars on the highway. So we are excited about that. 
We are looking at reductions in toxic pollution. And that is a 
very promising thing.
    But we have had another experience in New Jersey. We have 
been building rail spurs. In each case, like the one that we 
did yesterday, when it first opens, people were not, I would 
not say skeptical, but unrelated change happens.
    The first year, the average ridership in the Secaucus 
Junction Station was 5,000 people. Now it is 17,000 people and 
we have just extended more rail service from there. From our 
capitol, Trenton, down to Camden, New Jersey, which is one of 
the biggest cities in the southern part of our State, when the 
rail line first opened up, it was modest ridership.
    But something else happened. Businesses saw the convenience 
that employees might have getting back and forth to work on 
public transportation. Now, companies are opening along the 
line. It is a real spur to the economic situation which we 
desperately need to fix.
    While you are looking at Federal highways, the one thing I 
know that your experience is broad enough to say, that you have 
got to look at other things as well. Whatever the influence, it 
is a question of whether that kind of process is acceptable, 
because it means dividing the revenues that are available to 
us. And also to try and somehow figure out the consequences of 
things that we are doing. It is so interesting.
    Senator Moynihan was one of our great advocates of public 
transportation. He always used to point out that the National 
Highway System developed by President Eisenhower had an odd 
effect and result, and that was that it gave people an 
opportunity to abandon the cities and go find other places to 
live and move away from the problems of urban existence.
    Well, as a consequence, what we have seen across our State 
and, frankly, across this Country, is the decay, in many cases, 
of the cities, the urban centers, because people did not want 
to wrestle with the problems. But the problems are there for 
us, whether we choose to have them or not. So, we have to be 
very select in the things that we do.
    Earlier this year, Secretary LaHood said that in order to 
meet our future transportation demands, we cannot simply add 
lanes to our highways or invest our transportation dollars as 
we have in the past. Do you agree with that view?
    Mr. Mendez. Mr. Senator, you articulated, in all your 
comments, what I would consider to be the coordination of a 
full transportation system. Of course, you need to move 
commerce, heavy commerce, trucks, et cetera, and there are 
challenges with that. But at the same time, you also need to 
move people safely. There are also the intramodal aspects of 
pretty much everything that you talked about there. So, I think 
it is important as we move forward and begin looking at our 
solutions for the future, that we in earnest take a look at all 
the issues, just as you have articulated.
    The solutions that I have heard from Secretary LaHood have 
been looking at multi-modal solutions, because I think we all 
recognize that our world has changed in the last 20 years, the 
last 10 years for that fact. So our behaviors have changed. The 
price of fuel, for example, last year seemed to really create a 
spike in public transportation usage. So, I think as we being 
to look at the future proactively, it is important for all of 
us to take a good, hard look at that and assess the true needs.
    My feeling on this is that we have to be looking at all the 
options that are out there to ensure the viability of, not just 
our economic system, but also to ensure that all of our 
citizens are able to go from Point A to Point B in a safe and 
efficient manner.
    Senator Lautenberg. I recently introduced legislation that 
would establish a national transportation policy, a national 
transportation surface policy. Do you think we need that kind 
of a plan that places performance based measures on our Federal 
transportation programs? And let us see what happens as we do 
these things, to be sure that we focus on whether or not these 
investments are worthwhile and should be continued?
    Mr. Mendez. Yes. Mr. Senator, everybody is more actively 
engaged and informed about Government and what we do in 
Government. It is very clear to me that both President Obama 
and Secretary LaHood want to ensure transparency in the way we 
expend public funds.
    With that, I think, it is going to be very imperative for 
all of us in the transportation industry to, first of all, show 
accountability for those dollars, and second of all, to ensure 
that our performance is up to snuff. We need to ensure that, 
with limited resources, we place those resources where they are 
absolutely necessary and that they go to the highest priority 
infrastructure needs, and we need to ensure the public that we 
are doing the best we can with those funds.
    Senator Lautenberg. You know, the pity of it is, we have 
neglected putting money into the transportation systems in our 
Country that are so much in demand. As a consequence, we now 
face a crisis situation. No one is anxious to increase taxes or 
costs for operating, but reality is there and as a consequence, 
we have got to accept the fact that there are different ways to 
move people and goods. We have got to work on it.
    Over the past decade, the number of people killed in 
crashes with large trucks has averaged 5,000 each year. 
Further, large trucks place a major strain on our already 
stressed infrastructure. There is currently a ban on large 
trucks that weigh more than 80,000 pounds and are longer than 
53 feet on our interstate highway system. Could you imagine 
what the consequences of relaxing that ban would be? Would you 
think it would have a serious negative effect?
    Mr. Mendez. Mr. Senator, over the past decade or so, I have 
been engaged in that discussion. Being in Arizona, that issue 
was often raised. I think we look at, well, what is really the 
balance here? Clearly, under the current situation, safety is 
one of the factors that needs to be balanced out, along with 
productivity and, as you mentioned earlier, preserving our 
infrastructure. So, if I am confirmed, and if you as a Congress 
and the Administration choose to delve into that issue and look 
at different balances due to changes in the environment, I 
would be more than happy to do that.
    Senator Lautenberg. I am going to now call on Senator 
Carper, who will Chair the Committee. Thank you very much for 
being available to us and for the kind of work we expect you to 
be doing.
    Mr. Mendez. Thank you.
    Senator Carper [presiding]. Mr. Mendez, welcome. Thank you 
for joining us and for your willingness to serve. We have a 
vote underway, so this will last about five more minutes and 
then you will be free at last.
    Mr. Mendez. Thanks.
    Senator Carper. I want to ask you to just share briefly 
with us your take on a couple of programs, one of which is 
legislation introduced by Senator Tom Harkin of Iowa called the 
Complete Streets Act. Your thoughts, if you would, on that 
legislation? And on another piece of legislation called Safe 
Routes to School Program, which I suspect you are familiar with 
by virtue of your own work. Take a minute on each of those, if 
you would, Complete Streets and the Safe Routes to School 
Program.
    Mr. Mendez. Yes. Mr. Senator, I think what I would fall 
back on is not just my experience back in Arizona, because the 
Safe Routes to School Program was a critical program for us, 
but the concept of Complete Streets. I think when you bring all 
of that together, they fit very neatly within what I believe is 
Secretary LaHood's livability concepts.
    Now, being a nominee, I have not had the privilege to 
actually delve into the details of his concepts. But I believe 
what you just described in terms of the projects, or these 
programs, are where you really bring the livability concepts to 
the table. One of the things that I mentioned earlier is that, 
as one of our strategies with regard to greenhouse gas 
emissions, if in fact we are trying to stem the growth of 
vehicle mileage travel, these are some of the exact same 
programs that fit within those strategies.
    Senator Carper. Do you have anything else that you would 
like to say?
    Mr. Mendez. Pardon me?
    Senator Carper. Do you have anything else that you would 
like to say on either of those two programs?
    Mr. Mendez. Well, I think they fit very neatly within those 
concepts. I know Safe Routes to School, back in Arizona, was a 
very big hit for us.
    Senator Carper. The President has just announced increases 
in the fuel efficiency standards so that by 2016, I believe, 
our fleet has to be up to about 35 or 36 miles per gallon. The 
last time we had a dramatic increase in CAFE standards was 
back, I think, in the 1970s. Between 1975 and 1985, we 
increased the standards by well over half. We found out that 
people drove a whole lot more. We ended up with a lot more 
vehicles and we ended up using a whole lot more fuel.
    My question is, transportation, I think, after utilities, 
yields the most amount of CO<INF>2</INF> of any source of our 
economy and some of feel that, even if we increase fuel 
efficiency standards dramatically, we just simply drive more 
cars, end up with more time stuck in traffic, that we are not 
going to be really ahead of the game.
    I want to ask you, do you think that the United States 
Department of Transportation should support more robust 
regional planning for transportation emission reductions with a 
real focus on CO<INF>2</INF> emissions? Do you believe that 
Federal supported projects that reduce transportation emissions 
should be a goal of climate change legislation?
    Mr. Mendez. Mr. Senator, as I mentioned earlier, being the 
nominee, I have not had the opportunity to drill into the 
Secretary's thoughts on a lot of these issues. I can say that--
--
    Senator Carper. I think that he is going to yield to you 
for advice on this stuff, so----
    Mr. Mendez. Well, I hope that I have a lot of input into 
that. But I really think that those issues that you raise are 
going to very important for all of us to work collectively, in 
concert with the rest of the Members of Congress and with the 
Administration so that we can address those exact same issues.
    Senator Carper. I will ask it again. Do you agree that the 
Department of Transportation should support more robust 
regional planning for transportation emission reductions?
    Mr. Mendez. Mr. Senator, what I am prepared to do is to 
work with all of you on these strategies that will, in fact, 
have an impact on greenhouse gas emissions and if your idea is 
one of those that needs to be on table, I certainly would be 
more than happy to deal with that.
    Senator Carper. I will ask the second question again. Do 
you believe that the federally supported projects that reduce 
transportation emissions should be a goal of climate change 
legislation?
    Mr. Mendez. Are you referring to specific projects or 
general policy issues?
    Senator Carper. General policy issues.
    Mr. Mendez. Yes, I believe as we look at the reduction of 
greenhouse or climate change, however we want to frame that, 
with respect to transportation, it is going to be important for 
all us to look at all of these concepts.
    Senator Carper. With that, we will conclude this hearing. 
Thank you.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]
    [An additional statement submitted for the record follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Madam Chairman, thank you for holding this nomination 
hearing. I would like to thank and welcome Mr. Mendez for 
coming before our Committee to discuss the condition of the 
United States' highway system and his nomination to lead the 
Federal Highway Administration charged with the management of 
this vitally important infrastructure network.
    Our country's highways connect together communities, big 
and small, from coast to coast. We often take the service and 
convenience that our roads provide us for granted, which may 
explain why our highway infrastructure has fallen into such 
disrepair.
    The Road Information Project, a non-partisan national 
transportation research group, estimates that motorists spend 
4.2 billion hours a year stuck in traffic at a cost of $78.2 
billion a year--which works out to $710 per person. Drivers in 
the Washington, DC metropolitan area have to cope with some of 
the worst traffic congestion in the country--only to be outdone 
by the metropolitan regions of Los Angeles and San Francisco/
Oakland in the Chairwoman's home State.
    The Road Information Project also found that 33 percent of 
America's major roads are in poor or mediocre condition and 36 
percent of the Nation's major urban highways are congested. The 
American Society of Civil Engineers gave U.S. roads the abysmal 
grade of ``D^`` in its 2009 infrastructure report card.
    The 2007 National Surface Transportation Policy and Revenue 
Study, commissioned by Congress, determined it would cost $187 
billion annually to adequately address the outstanding 
maintenance and repair backlog for roads across the country. 
Maryland has a backlog of $650 million worth of projects, and 
in Maryland we take a ``fix-it first'' approach to highway 
maintenance and repair.
    Expanding the Nation's highway system without first 
addressing the maintenance and repair needs of existing roads 
just compounds the problem over time. I would strongly 
encourage your agency to focus attention on fixing and 
improving the efficiency of existing highways and roads over 
expanding the system. I look forward to hearing your thoughts 
on addressing the highway maintenance backlog and what you see 
as the Federal Highway Administration's service and 
construction priorities.
    Let me shift your attention for a moment to two 
environmental issues as they relate to the Federal Highway 
System.
    Maryland and our neighboring States share the important 
responsibility of caring for the country's most productive 
estuary, the Chesapeake Bay. There are two particular 
environmental threats to the Bay, and water resources around 
the country, from highways and roads that the Federal Highway 
Administration must pay greater attention to: Polluted 
Stormwater runoff from highways and Greenhouse Gas emissions 
from the transportation sector.
    Pollutants washed off roads include deicing agents, heavy 
metals, nitrogen, phosphorus, bacteria and sediment to local 
waterways.
    Statistics from the Maryland State Highway Administration 
provide an illustrative example of the magnitude of the 
challenge. As of October 30, 2008, SHA calculates that 90 
percent of Maryland State highways in the State's eight largest 
counties funnel pollution to the Chesapeake Bay 24 hours a day.
    EPA considers stormwater to be the largest source of water 
pollution in the country and this is a problem that grows 
larger with every new strip of highway. There are ways to 
reduce the flow of runoff and treat stormwater onsite using 
green infrastructure techniques that help preserve the natural 
hydrology of the landscape. I urge you to make water resource 
protection a priority for the Federal Highway Administration.
    The transportation sector is estimated to contribute nearly 
a third of the greenhouse gases contributing to the climate 
crisis and therefore reducing emissions from the transportation 
sector is critical in finding solutions to climate change. I 
hope that we can work quickly to get you confirmed and I look 
forward to working with you to help build a more efficient 
multi-modal transportation system that helps people spend less 
time in their automboiles--idling in traffic and pumping more 
CO<INF>2</INF> into the atmosphere--and more time at their 
destinations.
    Your expertise and experience with transportation issues 
are impressive and you are a clear leader in the transportation 
sector. I look forward to hearing your testimony.

                                 [all]
</pre></body></html>
